USCA11 No. 21-10331

IN THE SUPREME COURT OF THE UNITED STATES

VINCENT JONES,
Petitioner,
-vsMARK INCH, SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS,
Respondent.

PROOF OF SERVICE
I, Vincent Jones, do swear or declare that on this date, August 1 3- , 2021, as required by
Supreme Court Rule 29,1 have served the enclosed Petition for Writ of Certiorari, Appendix to Petition
for Writ of Certiorari, and Motion for Leave to proceed in Forma Pauperis, on each party to the above
proceeding, or that party's counsel, and on every person required to be served, by delivering the said
documents to prison officials by U.S. Mail, first-class postage to Office of the Attorney General, 444
Brickell Ave, Suite 950, Miami, FL 33131.

Vincent Jones, DC# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
Crestview-F-b-32-539---------------

w

CERTIFICATION
I HEREBY CERTIFY under the penalties for perjury, the copies contained herein this Appendix
to Petition for Writ of Certiorari are true and correct copies of the originals.

Vincent Jones, DC# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
Crestview, FL 32539

Executed this [ 2. day on August 2021.

DECLARATION OF SERVICE
I HEREBY CERTIFY under the penalties of perjury pursuant to 28 U.S.C. ยง 1746, that the
foregoing Petition for Writ of Certiorari was provided to prison officials with first-class U.S. mail
postage for mailing to: Clerk of Court, U.S. Supreme Court, 1 N.E. First Street, N.E., Washington, D.C.
20543-0001; and Office of the Attorney General, 444 Brickell Ave, Suite 950, Miami, FL 33131, on
this tfL day of August 2021.

Vincent Jones, D<ยฃ# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
Crestview, FL 32539

9

